                               OFFICE OF INSPECTOR GENERAL
                                   MEMORANDUM




  DATE:     March 18, 1996

      TO:   Chairman

  FROM:     Acting Inspector General

SUBJECT:    Final Report on the Audit of Fiscal Year 1994 Spectrum
            Auction Implementation Cost

The attached audit report reflects the efforts of the Office of
Inspector General(OIG) to support the conduct of successful
spectrum auctions and encourage the development and
implementation of strong financial management controls within the
Commission.   The objectives of the subject audit were to: (1)
examine the system implemented by the Commission to accumulate
and report auction related accounting information; (2) validate
the timeliness and accuracy of the information that was reported;
and, (3) identify areas where improvements could be made.

During the review, auditors identified $297,041 in questioned
cost. For purposes of this review, we have used the definition of
questioned cost contained in the Inspector General Act of 1978
(P.L. 95-452) §5.(f)(1)(B) which establishes questioned cost as
"a finding that, at the time of the audit, such cost is not
supported by adequate documentation." Questioned costs resulted
from (1)inaccuracies in reported personnel compensation expenses;
and (2) inadequate support for selected personnel compensation
and automation charges. During the conduct of our fieldwork, the
auditors worked with management to establish mechanisms to
accurately capture valid auction related expenses for FY 1995 and
latter years. Three specific recommendations for corrective
action are contained in the final audit report. The Managing
Director has formally concurred with all three recommendations.

It should be emphasized that there is no indication that any
fraud or malfeasance transpired within the scope of our audit.
Rather, it is our determination that questioned costs resulted
from inadvertent oversights on the part of responsible program
officials and staff, operating under extreme time constraints.


                                H. Walker Feaster III

cc:   Chief of Staff
      Managing Director
      Chief, Wireless Telecommunications Bureau
               REPORT ON THE AUDIT OF FISCAL YEAR 1994

                SPECTRUM AUCTION IMPLEMENTATION COST




                          Table of Contents

                                                             Page

EXECUTIVE DIGEST ............................................   1

AUDIT OBJECTIVE .............................................   3

AUDIT SCOPE .................................................   3

BACKGROUND ..................................................   4

FINDING - Inaccuracies in Reported FY 1994 Auction Cost

     o   Details of Finding .................................. 6
     o   Recommendations/Management Response ................. 17

APPENDIX I -   Memorandum to Chief, Wireless
               Telecommunications Bureau, from Acting
               Inspector General ............................. 19

APPENDIX II-   Memorandum to Acting Inspector General from
               Deputy Chief, Wireless Telecommunications
               Bureau ........................................ 21

APPENDIX III - Questioned Cost Table for Personnel
               Compensation ................................. 23

APPENDIX IV - Response to the Draft Audit Report by the
              Managing Director ............................. 24

APPENDIX V - Response to the Draft Audit Report by the Bureau
             Chief, Wireless Telecommunications Bureau ...... 27
EXECUTIVE DIGEST

The objective of this audit was to examine the system implemented
by the Commission in FY 1994 to record and report auction cost
information and to determine whether the system was providing
timely, accurate and meaningful financial information to Federal
Communications Commission (FCC) management. Auditors from the
Office of Inspector General (OIG) identified two areas, personnel
compensation and automation, in which improvements can be made in
the system to ensure that it provides timely and accurate
financial information. Both areas involve the lack of adequate
documentation to support reported cost. For purposes of this
review, we have expressed the value of inadequately supported
auction cost as "questioned cost" consistent with the definition
contained in the Inspector General Act of 1978.1

In performing the audit, auditors identified that FCC program
officials did not have a timely and accurate mechanism in place
in FY 1994, to accumulate hours and salary rates of FCC employees
which were determined to be chargeable as auction expenses. The
lack of accurate records has resulted in questioned costs of
$75,340. This amount reflects a summary of a number of
categories to include: (1) hours charged to auctions not
supported by documentation; (2) overtime hours charged for which
no corresponding disbursement was made; and,(3) hourly rates
charged for individuals assigned to auctions which were
erroneous. In addition, FCC program officials were unable to
provide OIG auditors with adequate documentation to support
certain costs associated with automation initiatives which were
expensed against FY 1994 auction proceeds. Questioned costs
related to these transactions totaled $221,701.
It is important to note that there is no evidence to suggest that
the conditions identified in this review resulted from any
deliberate attempt to circumvent accounting controls. Rather,
the auditors are of the opinion that the Commission, in focusing
it's energy and efforts towards instituting a successful auction
program in a short time frame, did not adequately address
administrative issues. To address the weaknesses identified, we
recommend that FCC management adopt the corrective measures
enumerated in this report in the current and subsequent fiscal
years. The Managing Director and Chief, Wireless
Telecommunication Bureau (WTB) concurred with the audit findings
and recommendations. Their responses to the Draft Audit Report
are furnished in entirety as Appendix IV and V to this report.



   1
    The Inspector General Act of 1978 (P.L. 95-452) § 5.(3)(f)(B),
          defines questioned cost as "a finding that, at the time
          of the audit, such cost is not supported by adequate
          documentation."
Prior to initiating this audit, the OIG issued two audit reports2
which addressed specific components of the spectrum auctions
program. These reports focused upon the methodology for
accepting and processing initial application receipts; tracking
and reporting on round by round bidding eligibility and activity;
and, the collection and deposit of down payments received from
successful bidders. Based upon audit findings, the OIG developed
a number of recommendations for corrective action to address
limited deficiencies noted in an overall extremely successful and
well conceived program.




   2
    Report on the Special Review of the Regional Narrowband Personal
           Communications Services (PCS) License Auction, OIG Report No. 95-A-
           1, dated January 20, 1995

       Report on the Special Review of the Narrowband Personal Services (PCS)
             and Interactive Video Data Service (IVDS) License Auctions, OIG
             Report No. 94-6, dated September 22, 1994
AUDIT OBJECTIVE

The objective of the audit was to examine the system implemented
by the Commission to accumulate and report auction related
accounting information and validate the timeliness and accuracy
of the information that was reported. An additional objective
was to identify areas where systemic improvements could be made
to ensure the accuracy of future year reported cost. To
accomplish our objective, we: (1) sampled reported cost elements
and collected appropriate supporting documentation; (2) verified
cost payment through the accounts payable system; (3) verified
the accuracy of reported Bureau/Office reimbursement; and (4)
interviewed managers involved in auction cost collection,
recording, and reporting.

AUDIT SCOPE

The audit was conducted in accordance with Generally Accepted
Government Auditing Standards and included such analysis,
interviews and testing as required to support the audit findings.

The scope of this review was limited to auction costs reported
for FY 1994. The scope did not include an3 assessment of the
Commission's interpretation of the statute with respect to the
applicability of the cost nor the basis for the determination
that FCC employee auction related salaries and expenses could be
recovered from auction proceeds. Thus, if the Commission
reported an expenditure as an auction related cost, we attempted
to verify that the expense was incurred, but did not attempt to
evaluate its applicability as an auction related cost.

To support the auction process, WTB established and staffed a
series GS-511 contract audit position within their organization.
 As part of our fieldwork, we interviewed the WTB contract
auditor to determine the extent of FY 1994 contract review, and
sampled auction contract audit work to verify its accuracy.
Based upon our review of the completed work, we determined that,
    3
     Section 309(j)(8)(B) of the Communications Act of 1934, entitled Retention
            of Revenues, states the following:

"Notwithstanding subparagraph (A), the salaries and expenses account of the
      Commission shall retain as an offsetting collection such sums as may be
      necessary from such proceeds for the costs of developing and implementing
      the program required by this subsection. Such offsetting collections
      shall be available for obligation subject to the terms and conditions of
      the receiving appropriations account, and shall be deposited in such
      accounts on a quarterly basis. Any funds appropriated to the Commission
      for fiscal years 1994 through 1998 for the purpose of assigning licenses
      using random selection under subsection (i) shall be used by the
      Commission to implement this subsection."



                                       2
under GAO "yellow book" Government Auditing Standards, we could
place reliance on the work being conducted by the WTB auditor.
Accordingly, we were able to limit the level of audit work
conducted. Although we placed audit reliance upon the WTB
auditor's work, we identified a potential independence problem as
defined by GAO as relates to the auditor's position and reporting
responsibilities within the WTB organization. This issue was
addressed to the Chief, WTB and is discussed in detail under
Section A. Contract Cost of this report

Audit fieldwork was performed within OMD and WTB from January
1995 to November 1995.

BACKGROUND

The Omnibus Budget Reconciliation Act of 1993, as amended on
August 10, 1993, added a new section 309(j) to the Communications
Act of 1934. This amendment to the Communications Act gave the
FCC express authority to employ competitive bidding procedures to
choose from among mutually exclusive applications for initial
licenses. In Fiscal Year (FY) 1994, the Commission promulgated
general rules governing the spectrum auction process and specific
rules governing the auction of licenses for the narrowband
Personal Communications Service (PCS) and Interactive Video and
Data Service (IVDS) licenses. On July, 29, 1994, the Commission
completed its auction of ten narrowband PCS licenses with a total
high-bid value of $617,006,674. Concurrently with the narrowband
PCS auction, the Commission conducted an auction of 594 IVDS
licenses. The total value of bidding for these licenses,
following adjustment for bidding credits, was $213,892,375.

In addition to providing the Commission authority to auction
licenses, the amendment gave the Commission the authority to
receive reimbursement for the cost of implementing this means of
allocating spectrum. Section (8)(B) of the new section 309(j),
entitled Retention of Revenues, states the following:

"Notwithstanding subparagraph (A), the salaries and expenses
     account of the Commission shall retain as an offsetting
     collection such sums as may be necessary from such proceeds
     for the costs of developing and implementing the program
     required by this subsection. Such offsetting collections
     shall be available for obligation subject to the terms and
     conditions of the receiving appropriations account, and
     shall be deposited in such accounts on a quarterly basis.
     Any funds appropriated to the Commission for fiscal years
     1994 through 1998 for the purpose of assigning licenses
     using random selection under subsection (i) shall be used by
     the Commission to implement this subsection."

On November 12, 1993, a memorandum was issued from the Acting
General Counsel to the Associate Managing Director for Operations

                                3
(AMD-O). This memorandum, entitled "Spectrum Auction
Authorization," examined the time frame for which the Commission
could retain auction proceeds to offset expenses. The question
at this point was whether the language of the authorizing
legislation allowed long term retention of revenue or if the
intent was for retention of start-up costs only. The Acting
General Counsel concluded that "the Commission is authorized to
retain all offsetting revenues."

On June 9, 1994, the Deputy Bureau Chief for Operations, WTB,
issued a memorandum entitled "Spectrum Auction Costs" to those
Bureaus and Offices participating in the auction process. This
memorandum served to establish a process by which auction related
costs could be accumulated and used to support requests for
revenue retention. The memorandum requested that auction costs
be reported in three stages. The first stage was hours and
travel by staff member for the period prior to and including
April 1, 1994. The second stage requested similar information
for the period of April 4, 1994 through June 10, 1994. The third
stage required weekly submission of hours and travel by employee,
as well as, purchase order and contract information. In
addition, costs incurred during stage three were to be reported
by function (e.g., Management/Supervisory overhead, Marketing,
Accounting, etc.) or by auction (e.g., narrowband, IVDS, etc.).




                                4
          INACCURACIES IN REPORTED FY 1994 AUCTION COST

The FCC does not have adequate documentation to support all FY
1994 costs assigned to the development and implementation of
spectrum auctions. The condition resulted from a number of
factors including management's emphasis on successfully
discharging the auction program, time constraints imposed on FCC
staff, and lack of compliance by FCC staff with internal
reporting procedures and applicable financial accounting
requirements. The Policy and Procedures Manual for Guidance of
Federal Agencies (Appendix 3 page 2-5), published by the General
Accounting Office, states that "a fundamental requirement for any
viable accounting system is that the financial transactions for
which the system must account be adequately supported with
pertinent documents and source records." The auditors have
identified questioned costs in the amount of $297,041. This
amount is broken down as $75,340 related to questioned personnel
compensation and $221,701 questioned costs identified as
automation costs.

FY 1994 Spectrum Auction Costs Accumulated by the FCC
In its initial stages, the Commission used funds from central
accounts (i.e., Bureau/Office accounts) to implement the
requirements of the auction authority and purchase the necessary
goods and services in FY 1994. A special project code was
established to track and reconcile auction related cost. After
the first round of auctions were conducted, in July 1994, some
charges were offset directly with auction proceeds. In addition,
auction costs absorbed by central accounts were "realigned" from
the direct appropriation account to an offsetting account and the
central accounts were, in effect, "reimbursed with auction
proceeds. This system reported $7,012,302 in auction related
obligations in FY 1994. That cost is broken down as reflected in
the following table on page 7:




                                5
        Classification                    Reported     Percentage
                    4
 Contract Cost                     $3,839,105       54.75%
 Personnel Compensation5           1,604,903       22.89%
 Automation Cost6 7                   1,282,744       18.29%
 Other Direct Cost                   285,550        4.07%
                                        $7,012,302      100.00%

Requirements for Accounting System Structure and Operation

Federal accounting principles and standards are promulgated by
the Comptroller General and officially transmitted in the "Policy
and Procedures Manual for Guidance of Federal Agencies" published
by the General Accounting Office. Appendix III of that manual,
entitled "Accounting System Standards," establishes requirements
for accounting system structure and operation, as well as
accounting processes and procedures. For purposes of
establishing these requirements, the Appendix defines the
"accounting system" as, "that part of the overall financial
management system which provides the total structure of methods
and procedures used to record, classify, and report information
on the financial position and operations of a governmental unit
or any of its funds, balanced account groups, or organizational
components."

Section III cites the requirements of 31 U.S.C. 3512(a) which
establishes a requirement for the head of each executive agency
to establish systems of accounting and internal control which
provide:

        ·complete disclosure of the financial results of agency

   4
       Contract Costs - Costs associated with Contract No. RFP-FCC-94-10 with
               Tradewinds Realty Advisors. This classification does not include
               contract costs associated with automation. These costs are
               classified as Automation Costs.
   5
       Personnel Compensation - Costs associated with Commission labor (including
               regular time and overtime), reimbursable agreements with Resolution
               Trust Corporation (RTC) and Federal Deposit Insurance Corporation
               (FDIC), and Special Acts and Performance Awards.
   6
       Automation Costs - Costs associated with auction automation activities.
               These include hardware and software procurement, communication
               system design and installation, software programming, and computer
               support.
   7
       Other Direct Cost - Miscellaneous charges including travel, equipment
               rental, printing expense, site design and construction, legal
               services, and supplies.



                                         6
          activities;

     ·adequate financial information needed for agency management
          purposes;

     ·effective control over, and accountability for, assets for
          which the agency is responsible; and,

     ·reliable accounting results and reports that will be the
          basis for preparing and supporting agency budget
          requests, controlling budget execution, and providing
          financial information the President requires.

In the section of Appendix III entitled "Accounting Processes and
Procedures, the Comptroller General establishes requirements for
transaction support. The section states the following in
defining these requirements:

"A fundamental requirement for any viable accounting system is
     that the financial transactions for which the system must
     account be adequately supported with pertinent documents and
     source records. These transactions, and any subsequent
     adjustments, should be authorized and executed in accordance
     with management criteria by personnel acting within the
     scope of their authority. They should be properly
     accumulated and correctly classified, coded, and recorded in
     all affected accounts. These transactions should be
     recorded in the accounts promptly and accurately, in the
     proper amount, to permit (1) preparation of financial
     reports in accordance with internal needs and external
     requirements and (2) prompt analysis of the information by
     management. Thus, information should be captured in the
     accounting records simultaneously with or immediately
     following the event that gave rise to the transaction."

Selected Charges were Reported Inaccurately or were not
Adequately Supported by Pertinent Documents and Source References

During our detailed review of reported auction cost, we examined
59.8% of the total reported cost of $7,012,302
($4,196,658/$7,012,302 = 59.8%). During that review, we
identified $297,041 in cost which was not adequately supported by
pertinent documents and source references as required by the
Comptroller General and cited above. These results are broken
down as follows:




                                7
     Classification        Reported        Reviewed   Questioned
Contract Cost            $3,839,105   $1,488,960      $       0
Personnel Compensation   1,604,903        1,174,711       75,340
Automation Cost           1,282,744    1,252,169       221,701
Other Direct Cost           285,550      280,818             0
                         $7,012,302   $4,196,658      $297,041


A.     Contract Cost

To support the auction process, the WTB established and staffed a
contract audit position within their organization. As part of
our fieldwork, the auditors interviewed the WTB contract auditor
to determine the extent of FY 1994 contract review and sampled
auction contract audit work to verify its accuracy. Based upon
our review of the completed work, the auditors determined that
reliance could be placed on the work being conducted by the WTB
auditor per GAO definition. Therefore, the auditors were able to
limit the level of audit work conducted.

As previously stated, the determination to place reliance on the
work of the WTB contract auditor was based upon our review of his
work files. The OIG is cognizant of GAO Government Auditing
Standards (commonly referred to as the "yellow book") language
that recognizes that a "government auditors' independence can be
affected by their place within the structure of the organization
to which they are assigned." Furthermore, the "yellow book"
states that "audit organizations should report the results of
their audits and be accountable to the head or deputy head of the
government entity and should be organizationally located outside
the staff or line management function of the unit under audit."
It is the opinion of the OIG that the placement of this audit
position within the WTB violates the aforementioned audit
standards. This determination was conveyed to the Chief, WTB, in
a memorandum dated August 31, 1995 and is included as Appendix I
to this report. In responding to this memorandum on October 27,
1995, the Deputy Chief, WTB, stated the following:

       I have carefully considered your suggestions to
       establish a reporting structure outside the Auctions
       Division for the contract audit position(s) currently
       assigned to that division. I believe that it is in
       the best interest to have these positions continue to
       report administratively to the Chief of the Auctions
       Division.

The complete memorandum of the Deputy Chief, WTB is included as


                                      8
Appendix II to this report. This matter was not resolved at the
time of the issuance of this audit report.

As part of the review of reported contract cost, the auditors
judgmentally selected six (6) vouchers from Contract No. RFP-FCC-
94-10 with Tradewinds Realty Corporation. Tradewinds Realty
Corporation was the principal contractor retained by the
Commission to assist the agency in the planning and conduct of
spectrum auctions in FY 1994. The vouchers selected represent
38.8% of total reported FY 1994 contract cost
($1,488,960/3,839,105 = 38.8%). The vouchers the auditors
selected are as follows:

     Task   Order   No.   1,   Invoice   No.   3   $  299,351
     Task   Order   No.   1,   Invoice   No.   6      791,183
     Task   Order   No.   2,   Invoice   No.   3      105,068
     Task   Order   No.   3,   Invoice   No.   3       98,839
     Task   Order   No.   4,   Invoice   No.   1       62,041
     Task   Order   No.   5,   Invoice   No.   4      132,478
                                                   $1,488,960

The six vouchers selected for review were traced back to all
supporting documentation. The auditors did not find any cases
where documentation was missing. The auditors also checked
whether the fringe benefits, overhead, general & administrative
expenses, and fees were consistent with the rates in the contract
agreement and whether the amounts were correctly calculated. The
auditors found the rates were consistent with the contract
agreement and the amounts were calculated correctly.

B.   Personnel Compensation

The FCC did not maintain adequate records to support all FY 1994
personnel compensation costs. In addition the FCC did not have
adequate procedures in place to ensure that all costs were
reimbursed. These conditions resulted primarily from the lack of
compliance by FCC staff with internal reporting procedures,
applicable financial accounting requirements and inadvertent
errors on the part of the Cost Accountant. Federal accounting
principles and standards promulgated by the Comptroller General
state that "Fundamental requirement for any viable accounting
system is that the financial transactions for which the system
must account be adequately supported with pertinent documents and
source records." The auditors have identified total questioned
personnel costs of $75,340 as reflected in the following table:




                                          9
                                                          Paragraph
                                Dollar        Dollar      Reference
         Finding              Amount For    Amount For       For
                             Overcharges   Undercharges   Section B
 1. Unsupportable                                             1
      Hours                    $20,792
 2. Reimbursable Costs not
      Reimbursed to the                                       2
        Commission                            $14,656
 3. Inaccurate Hourly Rate     $13,300                        3
 4. Inaccurate Hourly
      Rates                                   $1,678          3
 5. Unsupportable Overtime     $24,914                        4
      Totals                   $59,006        $16,334



As part of the audit fieldwork, the auditors requested supporting
documentation from AMD-O for all direct labor hours worked and
charged to auctions by FCC employees in FY 1994. These same
records reportedly served as the source documentation used to
support the Commission's request to Treasury for funds in the
amount of $1,604,903. These funds were reimbursed from auction
proceeds.

Of the $1,604,903, the auditors actually examined source
documents totaling $1,174,711, or 73.2% of the aggregate. The
balance was composed of amounts disbursed to other Federal
agencies that provided assistance to the FCC (the Resolution
Trust Corporation and Federal Deposit Insurance Corporation) and
Special Act and Performance Awards. These disbursements
comprising approximately 26.8% of the $1,604,903 did not fall
within the scope of the auditors review.

Based upon review of source documentation, the auditors
identified four finding areas as identified below:

     1.   Source documentation did not exist to support 752
direct labor hours for which reimbursement was obtained. These
752 hours translated to approximately $20,792.

The auditors were informed that the condition cited above
resulted from the lack of compliance on the part of FCC employees
in forwarding appropriate documentation (details of hours worked
by individual and salary rate) to the designated staff within
AMD-O. This condition may also have resulted from insufficient
control and record keeping by staff within AMD-O.


                                   10
     2.   Through the review of detailed records, the auditors
identified that a number of hours, which by FCC definition,
should have been charged against auction proceeds were not. A
total of $14,656 in reimbursable costs were not reimbursed to the
Commission. The $14,656 represents 421 hours worked on spectrum
auctions by 9 employees. The auditors questioned the responsible
official in AMD-O to ascertain how this situation transpired.
The responsible official advised the auditors that she was not
aware how the hours were mistakenly omitted. The $14,656 for
which the Commission should have sought reimbursement, is
considered as a questioned cost.

The responsible official within AMD-O informed the auditors that
significant activity had taken place in FY 1995 to mitigate the
potential for the condition cited above to have occurred in FY
1995. Specifically AMD-O has established a contact person in
each Bureau/Office who is responsible for accumulating and
reporting on a pay period by pay period basis, the hours worked
by employees. Each contact point is responsible for submitting
an auction labor hour report that includes the employees name,
grade/step, and hours worked. The information is then sent to
the AMD-O. Information is compiled by AMD-O officials and
formatted into a consolidated report. At the time audit field
work was completed, the information provided by the
Bureaus/Offices was being manually recorded on a spreadsheet.
The auditors were informed that a automated program using Paradox
has been developed to replace the manual system. AMD-O plans to
convert to this automated system in the near future. Further
more, on October 1, 1995 the Commission implemented a Cost
Accounting System. This system has the capability of
accumulating labor hours charged to various programs including
the Spectrum Auction Program.

     3.   FCC employee payroll records did not fully support
labor hours and hourly salary rates which were used as a basis
for accumulating auction related costs. The auditors have
attributed this condition to inconsistent record keeping and
incorrect interpretation on the part of the Cost Accountant
assigned to AMD-O. Thus, the Commission is not in full
compliance with source documentation requirements contained in
the Policy and Procedures Manual for Guidance of Federal Agencies
Appendix III, Chapter 2 § 2-5. Questioned costs in the amount of
$13,300 and $1,678 respectively, have been developed in this
finding section.

The auditors compared official FCC payroll records to auction
reimbursable labor cost records maintained by the responsible
AMD-O official. Inaccuracies were identified in the billing
rates for 107 of the 109 employees8 (98%) who charged hours to
   8
    An additional 12 employees charged hours to auctions. These
          12 employees were not included in the sample due to


                               11
the auction program in FY 1994. The auditors found 100 out of
109 employees (92%) rates were higher than employees actual
hourly rates. Actual9 versus rates used in reimbursement
calculations ranged from $.03 to $19.15 per hour. Resulting
questioned costs totaled $13,300. This amount represents the
amount by which the Commission was over reimbursed.

The majority of the 100 discrepancies resulted from the
calculation of hourly salary rates based upon a denominator of
2080 hours in lieu of the actual prescribed 2087 hours an
employee works per year. While this resulted in relatively small
billing discrepancies, the Commission inexplicably billed a rate
significantly higher than that actually earned by certain
employees. The most significant discrepancies are reflected in
the table below:


   HOURS
  CHARGED                TOTAL      ACTUAL   SUPPORTABLE
     TO        RATE     AMOUNT      SALARY     BILLING     QUESTIONED
 AUCTIONS    CHARGED   CLAIMED       RATE       AMOUNT       AMOUNT
   222        $41.29   $9166.38     $22.14     $4915.08     $4251.30

   299        $29.61   $8853.39     $16.34     $4885.66     $3967.53

   388        $46.88   $18,189.44   $43.24    $16,777.12    $1412.32



Additionally, the auditors identified 9 employees out of the 109
employees (8%) who had higher hourly salary rates then those
rates used in actual reimbursement calculations totaling $1,678.
This amount represents an under-billing for which the Commission
was entitled to reimbursement and thus, is classified as a
questioned cost.

     4.   The Commission was reimbursed for numerous overtime
hours worked for which no financial outlay was incurred by the
agency. The Commission in FY 1994 did not provide salaried
overtime to persons involved in the auction. And while some
employees were able to earn and utilize credit hours, this was
extremely limited due principally to the volume of auction
related work in FY 1994.

The auditors compared official FCC payroll records to records

            insufficient employee payroll records.
   9
    Actual rates reflect those rates appearing on Office of
          Personnel Management (OPM) Salary Table No. 94-DCB.



                                    12
maintained by the responsible AMD-O official. The auditors
identified that overtime hours worked on the auctions by FCC
employees, while charged against auction proceeds as costs
incurred, were in fact not consistently paid to effected
employees. The auditors identified 17 employees who worked in
excess of 80 hours per pay period on the auction program. For
these 17 employees, the Commission was reimbursed approximately
$31,849 (rounded) for expenses related to overtime earned. Out
of the $31,849 the Commission was reimbursed from auction
proceeds, the Commission only compensated the responsible
employees, in credit hours that can be translated to, $6,934 in
equivalent salary. Assuming the validity of the Commission being
reimbursed for credit hours, this results in a net difference of
$24,914. (See Appendix III).

C.   Automation Cost

Automation cost accounted for a significant portion of the total
cost of implementing the spectrum auction in FY 1994. In fact,
costs associated with automation efforts accounted for 18.3% of
the total FY 1994 cost of $7,012,302 ($1,282,744/$7,012,302 =
18.3%). As part of our review, the auditors judgmentally
selected twenty-seven (27) automation line items with a total
value of $1,252,163. The selected charges represent 97.6% of the
total FY 1994 auction automation cost of $1,282,744
($1,252,163/$1,282,744 = 97.6%).

For each selected charge, the auditors requested all available
documentation supporting obligation creation, procurement, and
vendor payment. In addition, the auditors obtained and reviewed
documentation supporting the reimbursement of individual Bureaus
and Offices with auction proceeds. During the detailed review of
the supporting documentation, the auditors identified the
following transactions in which cost information was not
adequately supported by pertinent documentation:

                  Purchase Order    Line     Reported
Product/Service       Number        Item   Dollar Value   Reference
CBIS              43-3JJ5-4-1033G    03    $   70,482         1
CBIS              43-3JJ5-4-2431     03        54,477         1
CBIS              43-3JJ5-4-1187G    02        54,117         1
CDSI              43-3JJ5-4-0078               32,625         2
Bell Atlantic     43-3JJ5-4-0878    01         10,000         3
                                           $ 221,701

     1.   The auditors selected a series of charges incurred as
part of an interagency agreement with an organization under
contract with the Department of Justice (DOJ). This
organization, Cincinnati Bell Information Systems, Inc.
(hereafter referred to as "CBIS"), was being used to perform
programming support to "application maintenance, development and
conversion efforts." For each selected charge we attempted to


                               13
verify that work had, in fact, been performed and that the work
was clearly auction related. Although in some cases the auditors
were able to obtain accounting records which indicated payment
against the respective purchase orders, these records did not
provide a level of detail necessary to verify that the specific
line items established for auction related efforts had been
billed.

The auditors were informed by a representative for the office of
the Associate Managing Director for Information Management (AMD-
IM) that "(f)or billing purpose, the DOJ receives the invoices
from CBIS for services rendered, the FCC receives a status report
in accordance with the terms of the DOJ contract and the
interagency agreement." AMD-IM went on to report that "FCC
maintains records of these status reports." The auditors
obtained and reviewed the status reports provided by the
contractor through DOJ for the selected charges. A detailed
review indicated that, although references to specific auction
related tasks were made in the reports, cost information was
provided at the purchase order level. Therefore, because the
purchase order contains auction and non-auction work, reported
auction cost could not be supported.

     2.   The auditors selected a charge attributed to
"Facilities Management Services and Programming Support for
Fiscal Year 1994" incurred by Computer Data Systems, Inc.
(hereafter referred to as "CDSI") in the amount of $32,625.
Although AMD-IM was reimbursed for the amount reported, the
auditors were unable to obtain any documentation supporting this
charge including documentation supporting the creation of the
charge (e.g., Data Automation Service Request, Request for
Property or Services, etc.). The auditors were informed by an
AMD-IM representative that "(t)his PO represents the services of
one individual who performed services considered auctionable.
His records are available." We obtained a copy of the referenced
records and determined them to be inadequate as they did not
separately report auction and non-auction work. Instead, these
records reported only total contract activity for each month.

     3.   The auditors selected a charge attributed to
"(s)ervices of a technician to perform repairs, moves, changes
and installations on current telephone systems for 6 months."
This charge, incurred by Bell Atlantic, was in the amount of
$10,000. Although AMD-IM was reimbursed for the amount reported,
we were unable to obtain any documentation supporting payment of
this charge with auction proceeds.

The auditors were informed by a representative from the AMD-O
that this was "an estimated cost provided by Information
Management", and that, as was often done during the final weeks
of closeout, "this was done verbally to expedite the action."
AMD-O went on to state that "(a) number of Information Management


                               14
line items were based on their best estimates of the pro rata
share of funds reflected on an existing Commission contract which
had been used to support Auction activities. The Budget Staff
did not have the criteria used for these prorations. Information
Management should address the methodology which was used."

We contacted a representative from AMD-IM and were informed that
"the allocation for 43-3JJ5-5-0878 was made based on an estimate
of the anticipated workload for phone work (new equipment,
relocations etc.)." Although we requested documentation to
support the estimate, this documentation was not provided.

D.   Other Direct Cost

Other Direct Cost (ODC) accounted for 4.1% of the total FY 1994
cost of $7,012,302 ($285,549/$7,012,302 = 4.1%). As part of our
review, the auditors judgmentally selected fifteen (15) ODC line
items with a total value of $280,817. The selected charges
represent 98.3% of the total FY 1994 ODC cost of $285,549
($280,817/$285,549 = 98.3%).

For each selected charge, the auditors requested all available
documentation supporting obligation creation, procurement, and
vendor payment. In addition, the auditors obtained and reviewed
documentation supporting the reimbursement of individual Bureaus
and Offices with auction proceeds. During the detailed review of
the supporting documentation, the auditors observed that all
reported charges were adequately supported.




                               15
RECOMMENDATIONS AND MANAGEMENT RESPONSE

In order to address the conditions cited in the body of the
report, the OIG has developed three recommendations for
corrective action as appear below. The Managing Director
concurred with each of the three recommendations. The complete
text of his response to recommendations 1 and 3 respectively, are
incorporated below. Due to the length of his response to
recommendation 2, only an excerpt is provided in this report
section. The full text of the response of the Managing Director
is included as Appendix IV to this report.

The OIG recommends that the Managing Director:

1.   Formally document the process by which auction related
     expenditures are created, approved, processed, recorded, and
     reported. This document should clearly establish the
     requirement for supporting documentation and establish
     specific responsibilities for each organization involved in
     the auction accounting process. This document should be
     distributed to all organizations involved in the process.

     Management Response: Copies of Spectrum Auctions:
     Auction Cost Recovery Guidelines and Procedures were
     distributed in July, 1995.

2.   Review the questioned labor and automation costs charged
     against auction proceeds and reach a determination as to the
     appropriate treatment of these questioned costs and
     institute appropriate action.

     Management Response: There were "questioned costs" in
     two areas, Personnel Compensation and Automation. Each
     of these questioned costs have been reviewed and have been
     determined to be accurate and appropriately treated, but
     lacking adequate records or backup documentation.... The
     new formal cost accounting system implemented on October 1,
     1995 should resolve for the future the appropriate level of
     personnel compensation to be charged to auctions.

3.   Review auction automation contracts to determine if cost
     reports, provided by contractors, separately report auction
     cost information. If not, take steps to ensure that future
     procurement actions contain provisions to ensure that this
     information is provided.

     Management Response: In FY 1995, all automation contracts
     were modified to provide specific cost accounting procedures
     for all auction-related tasks. These cost reports are
     currently being provided by the contractors involved.



                               16
In responding to the draft report, the Chief, WTB, stated:

     With regard to the comments contained in the report
     concerning the establishment of an outside reporting
     structure for the auctions Division's contract
     auditor, I believe that the Bureau has fully responded
     to this issue in a memorandum dated October 27, 1995
     and signed by our Deputy Bureau Chief....


The complete response of the Chief, WTB, is provided as
Appendix V to this report.




                               17
                                                             APPENDIX III



           EMPLOYEE
OVERTIME    HOURLY       TOTAL          CREDIT     CREDIT
  HOURS      RATE      OVERTIME          HOURS   HOURS IN    QUESTIONED
 WORKED      USED     REIMBURSED        EARNED    DOLLARS      AMOUNT
   17       $31.21      $530.57           12      $374.52      $156.05
   20       $56.03     $1120.60           10      $560.30      $560.30
   15       $43.39      $650.85           4       $173.56      $477.29
   19       $46.88      $890.72           10      $468.80      $421.92
   5        $31.22      $156.10           5       $156.10         $0
   3        $43.39      $130.17           3       $130.17         $0
   16       $34.05      $544.80           10      $340.50      $204.30
   20       $43.39      $867.80           10      $433.90      $433.90
   6        $13.93      $83.58            0         $0          $83.58
  165       $25.62     $4227.30           16      $409.92      $3817.38
  137       $43.39     $5944.43           38     $1648.82      $4295.61
   50       $43.39     $2169.50           0         $0         $2169.50
  134       $43.39     $5814.26           22      $954.58      $4859.68
   55       $56.03     $3081.65           0         $0         $3081.65
   15       $41.17      $617.55           13      $535.21       $82.34
  170       $20.78     $3532.60           36      $748.08      $2784.52
   36       $41.29     $1486.44           0         $0         $1486.44

  885                 $31,848.92         189     $6,934.46    $24,914.46




                                   22
  H. Walker Feaster III
Acting Inspector General




    Paul Brachfeld
   Director of Audits




      Tom Bennett
     Senior Auditor




  Stephanie Dunscomb
        Auditor
